         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Alleged Health and Wellness Benefits
Irregularities by a Department
Contractor




INS-L-12-03                          May 2012
                                           Department of Energy
                                              Washington, DC 20585

                                                    May 21, 2012


MEMORANDUM FOR THE DIRECTOR, NATIONAL ENERGY TECHNOLOGY
               LABORATORY




From:                            Sandra D. Bruce
                                 Assistant Inspector General
                                    for Inspections
                                 Office of Inspector General

Subject:                         INFORMATION: Inspection Report on "Alleged Health and Wellness
                                 Benefit Irregularities by a Department Contractor"

BACKGROUND

The National Energy Technology Laboratory (NETL), owned and operated by the Department of
Energy, supports the Department's mission to advance the national, economic and energy security
of the United States. NETL has 5 sites with 81 buildings and 14 major research facilities on nearly
200 acres. More than half of NETL's 1,100 employees are site support contractors. Ahtna Facility
Services, Inc. (Ahtna) is one of the support contractors that is responsible for providing security
services for sites located in Morgantown, West Virginia; Pittsburgh, Pennsylvania; and Albany,
Oregon.

The Office of Inspector General received allegations concerning irregularities with health and
wellness fringe benefits (fringe benefits) and retaliatory practices by Ahtna. 1 Specifically, it was
alleged that Ahtna: (1) did not provide a specific group of employees at the Albany, Oregon site
an option to receive cash in lieu of fringe benefits; (2) established individual 401(k) accounts
without the employee's consent and withheld information concerning employee fringe benefits
contributions of approximately $10,000; and (3) terminated an Ahtna employee for complaining
about issues related to fringe benefits administration. We initiated an inspection to review the
facts and circumstances surrounding these allegations.

CONCLUSIONS AND OBSERVATIONS

While we generally substantiated allegations one and two, we determined that in most instances
Ahtna's actions were not contrary to contractual and regulatory requirements. Regarding the
third allegation, the Office of Inspector General's Hotline referred the employee to the
Department's local Employee Concerns Program.

1
    Fringe benefits may include health, dental and life insurance, and short and long term disability.
                                  Fringe Benefits Plan Options

We substantiated the allegation that Ahtna did not provide a specific group of employees at the
Albany site the option to receive cash in lieu of fringe benefits. The Service Contract Act (SCA)
requires contractors to pay service employees $3.50 per hour for fringe benefits up to 40 hours
weekly for employees working in Oregon. For example, if employee "A" worked 40 hours per
week, their fringe benefits would be $560 per month. If employee "A" elected the fringe benefits
monthly option (at a cost of $325), the $560 would be allocated: $250 for health care; $50 for
long term disability; $25 for life insurance; and the residual balance of $235 would be transferred
to the employee's 401(k) retirement plan.

We determined that contrary to the former site support contractor's practice, Ahtna did not afford
employees at the Albany site the option of receiving $3.50 per hour for up to 40 hours per week
in their paychecks. Instead, Ahtna opted to use the funds to pay individual employee's fringe
benefits and the residual amounts, if any, were placed in the employee's individual 401(k)
accounts. Title 29 Code of Federal Regulations § 4.177, Discharging fringe benefit obligations
by equivalent means, allows an employer to discharge fringe benefits obligations by providing a
combination of fringe benefits or making equivalent or differential payments in cash.

Our review of Ahtna's security contract revealed that it was at Ahtna's discretion to determine
how the fringe benefits funds would be distributed to its employees. Both the contracting officer
and Ahtna Corporate officials also confirmed that it was at the employer's discretion to
determine how fringe benefits were administered. Further, our review of the hiring packages of
affected employees at the Albany site revealed that the following language was included in the
package: "Fringe benefits not used to pay for an employee's insurance premiums … will be
deposited into the employee's 401(k)."

                                     401(k) Retirement Plan

We substantiated the allegation that Ahtna had established individual 401(k) accounts without
the employee's consent. Our interviews with employees at the Albany site revealed that they
neither wanted nor consented to Ahtna establishing individual 401(k) accounts. According to
Ahtna's Corporate Benefits officials, Ahtna can establish employee's individual 401(k) accounts
without the employee's consent for fringe benefits residuals. Also, 401(k) accounts are
automatically established for all new employees. We noted that with the award of the Ahtna
contract, all employees were considered new employees.

Ahtna officials told us that new hire presentations included information that informed employees
that residuals from fringe benefits would be automatically distributed to individual 401(k)
accounts. Our review of the SCA Fringe Administration document revealed that the document
included language stating that employee's fringe earnings pay for their monthly insurance
premiums and the balance is deposited into a 401(k) account. Based on our assessment of the
SCA Fringe Administration document, we were unable to find language in the document
requiring an employee's signature to establish a 401(k) plan. Further, our interviews with
affected Ahtna employees revealed that they believed they could opt out of the 401(k) program
and it was not clear that Ahtna was not required to pay the $3.50 directly to them.

                                                2
Our review of the Ahtna SCA Contract 401(k) Enrollment Form, which includes a section on
payroll deduction authorization, revealed that the employee had an option to authorize deduction
in the "Before-Tax Contribution Roth Contribution" or "Decline Plan Participation." Ahtna
Corporate Benefits officials explained that this section referred only to payroll deductions for
401(k) plan participation above the $3.50 fringe benefits allotments. However, the employees
stated that they believed by selecting "Decline Plan Participation," they would receive the $3.50
per hour as cash. After discussing this issue with Ahtna Corporate Benefits officials, they agreed
that the language could be confusing and informed us that they would take action to ensure that
the information was clear to current and future Ahtna employees. Thereafter, we reviewed
Ahtna's 2012 Employee Benefit Summary and noted that the modified summary included the
following clarifying language: "Employee's fringe earnings pay for their monthly insurance
premiums and the remaining fringe is deposited into a 401(k) account."

Furthermore, we substantiated the allegation that Ahtna withheld information concerning
employee fringe benefits contributions of approximately $10,000. We noted that certain
employees at the Albany site began contributions to the 401(k) plans as early as February 2011;
however, quarterly fringe benefits statements were not provided to the employees until
September 2011. Ahtna's internal policy required Ahtna to provide benefits statements to its
employees within 60 days of the 401(k) distribution. Ahtna Corporate officials stated that the
delay in providing the quarterly statements was due, in part, to a delay by the employees at the
Albany site in submitting the required paperwork to elect benefits. For example, one official
stated that employees at the Albany site did not submit paperwork prior to March 2011, and as a
result, quarterly deposits were not made until June 2011. We also learned during our interviews
that the delay was due to an oversight by Ahtna Corporate Benefits personnel who failed to
enroll employees at the Albany site in the corporate benefits plan.

Ahtna Corporate Benefits officials stated that this issue has been resolved and that the employees
were added to the corporate benefits plan in March 2011. Although we were unable to obtain
individual 401(k) plan statements for all of the affected employees, we reviewed Ahtna
Corporate Contribution reports, which showed the affected employees that were added to Ahtna's
benefits plan and that 401(k) fringe benefit contributions were accounted for in the individual
employee's account. We also found that, in general, Ahtna was allocating the funds to the
appropriate individual accounts. However, our review disclosed concerns relating to allocation
of funds.

                                                   Other Matters

We found discrepancies concerning Ahtna's allocation of funds to individual employee 401(k)
plans. Specifically, during two consecutive quarters (January-June 2011), we determined that for
four of the seven affected employees, 2 Ahtna paid fringe benefits above the 40 hours that is
required by the SCA, and there was an underpayment of fringe benefits in the second quarter
ranging from $15.50 to $98.00. We discussed these discrepancies with an Ahtna Corporate
Benefits official who agreed that the Employee Earning Reports for the employees at the Albany

2
    One of the seven employees was considered a corporate employee and would not receive the fringe benefit of
    $3.50. The other two employees only worked for a short period and were paid their 401(k) benefits upon their
    departure.

                                                           3
site for the second quarter were incorrect and that employees were inappropriately paid $3.50
fringe benefits payments for overtime hours. The official further stated that Ahtna had
previously adjusted the 401(k) statements for these employees to reflect the removal of the
funding.

Our review of the employee's statements determined that Ahtna had adjusted the 401(k) correctly
for the overpayment involving more than 40 hours and the underpayment for the four employees.
Specifically, our review of a modified contribution report showed that the corrected amounts
matched the amounts actually reflected on the employee's statements. 3 Also, our review of a
spreadsheet calculation provided to Ahtna from its third party administrator revealed that the
adjusted amounts identified on the provided spreadsheets mirrored the discrepancies we
identified.

When we discussed the results of our assessment of the four affected employees' fringe benefits
payments with Ahtna Corporate Benefits officials, these officials stated that the circumstances
surrounding the miscalculations also affected approximately 375 other Ahtna employees,
encompassing approximately $20,000 in fringe benefits payments. Ahtna officials informed us
that this issue has been resolved; however, we did not review the actions taken by Ahtna
concerning the 375 employees.

                                                Contributing Factors

As previously stated, there were several contributing factors that led to employees' concerns at
the Albany site about receiving fringe benefits instead of the $3.50 per hour. Specifically:

        • The previous contractor allowed employees to opt out of the fringe benefits and receive
          cash;

        • Employees were not initially enrolled in the corporate benefits plan, which was an
          oversight by Ahtna Corporate Benefits personnel; and,

        • There were delays in employees completing the benefits paperwork.

Additionally, the current Ahtna contract for Morgantown and Pittsburgh allows its employees to
opt out of the fringe benefits and receive cash, based upon the collective bargaining agreement,
due to the two sites being unionized. These actions, in combination with the lack of clear
communications and delays in receiving initial quarterly statements concerning the 401(k) fringe
benefits funding, also caused employees at the Albany site to question Ahtna's management of
these funds. During our discussions with Corporate Benefits officials, we were told that the
Ahtna Corporate Benefits Department has instituted an internal monthly audit of payroll records
to help ensure that new hires are promptly added to the corporate benefits plan. We were also
told that quarterly fringe benefits audits will be conducted by an external entity. We believe
these actions should assist Ahtna in ensuring that the employees are receiving proper fringe
benefit allocations to the individual 401(k) plans.
3
    Corporate Benefit officials stated that the underpayments were a result of the four employees receiving payments
    for over 40 hours.

                                                           4
                                      Retaliatory Practices

Regarding the third allegation, that Ahtna terminated an employee for complaining about issues
related to fringe benefits administration, the Office of Inspector General's Hotline referred the
former employee to the Department's local Employee Concerns Program.

We appreciated the cooperation received from your staff during the inspection. Based on the
results of our review, no recommendations are being made and no formal response is required.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Chief of Staff




                                                5
                                                                                        Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the inspection was to determine the facts and circumstances surrounding
allegations concerning health and wellness fringe benefits irregularities and retaliatory practices
by Ahtna Facility Services Inc (Ahtna).

SCOPE

This allegation-based inspection was performed from November 2011 through April 2012 at
Albany, Oregon, and Washington, D.C. To accomplish the inspection objective, we:

      •   Reviewed and analyzed pertinent Federal Regulations related to fringe benefits and
          Ahtna's internal fringe benefits and 401(k) procedures;

      •   Reviewed and analyzed electronic communication provided to employees concerning
          fringe benefits;

      •   Conducted interviews of Federal and contractor personnel; and,

      •   Tested Ahtna's financial system concerning fringe benefits.

METHODOLOGY

We conducted this inspection in accordance with the Council of the Inspectors General on
Integrity and Efficiency's Quality Standards for Inspection and Evaluation, January 2011. The
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection. The inspection included tests of controls
and compliance with laws and regulations to the extent necessary to satisfy the inspection
objective. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our inspection. Finally, we relied on
computer-processed data to some extent to satisfy our objective related to 401(k) plans. We
confirmed the validity of such data, when appropriate, by reviewing source documents and
performing physical observations.

The exit conference with management was waived.




                                                 6
                                                                    IG Report No. INS-L-12-03


                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message clearer to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name __________________________________ Date ______________________________

Telephone ______________________________ Organization ________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
